NATIONAL CREDIT UNION ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




                    LESSONS LEARNED –
          SUCCESSFUL OUTCOMES WITH CREDIT UNIONS
             EXHIBITING SUPERVISORY CONCERNS


                      Report #OIG-14-07
                         April 3, 2014




                       James W. Hagen
                      Inspector General




                     Allison D. Washington
                         Senior Auditor
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   TABLE OF CONTENTS

   Section                                                                                                              Page


   ACRONYMS AND ABBREVIATIONS ........................................................................... ii

   EXECUTIVE SUMMARY .................................................................................................1

   BACKGROUND .................................................................................................................2

   OBJECTIVES, SCOPE, AND METHODOLOGY .............................................................4

   RESULTS IN DETAIL........................................................................................................5

             Examples of Lessons Learned .................................................................................5

   APPENDICES:

             A. Summary of Supervisory Concerns ................................................................13

             B. Overview of Credit Union Status.....................................................................15

             C. NCUA Management Response ........................................................................16




   NCUA Office of Inspector General                                                                                 Page | i
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   ACRONYMS AND ABBREVIATIONS

    C&D                 Cease and Desist Order
    CAMEL               [C]apital Adequacy, [A]sset Quality, [M]anagement, [E]arnings, and
                        [L]iquidity/Asset-Liability Management
    CEO                 Chief Executive Officer
    DOR                 Document of Resolution
    DSA                 Division of Special Actions
    EIC                 Examiner in Charge
    HELOC               Home Equity Line of Credit
    LUA                 Letter of Understanding and Agreement
    MBL                 Member Business Loan
    NCUA                National Credit Union Administration
    OIG                 Office of Inspector General
    PWL                 Preliminary Warning Letter
    RDL                 Regional Director Letter
    SSA                 State Supervisory Authority




   NCUA Office of Inspector General                                            Page | ii
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   EXECUTIVE SUMMARY

   The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
   conducted this self-initiated audit to help NCUA in the supervision of credit unions moving
   forward. The objective of this audit was to identify lessons learned from NCUA cases where
   specific corrective actions helped revitalize credit unions exhibiting supervisory concerns. To
   accomplish our objective, we interviewed NCUA regional management and staff. We also
   obtained and reviewed NCUA guidance, policies, procedures, and other available information
   addressing credit unions experiencing supervisory concerns. In addition, we judgmentally
   selected from each of NCUA’s five regions two credit unions where corrective actions helped
   revive the credit unions. 1 Furthermore, we identified and discussed the supervisory concerns at
   the ten credit unions.

   We determined examiners and regional staff used various informal and formal actions that were
   instrumental in helping credit union management to correct the various supervisory concerns.
   Specifically, with each of the credit unions, examiners increased their supervision with more
   frequent onsite visits and offsite monitoring such as follow-up telephone calls and financial report
   reviews; examiners issued Documents of Resolution (DORs) at each credit union in an effort to
   help correct the problems; and with credit unions where increased supervision and DORs did not
   suffice, regional staff issued Regional Director Letters, Letters of Understanding and Agreement, a
   Preliminary Warning Letter, and a Cease and Desist order.

   In addition, we determined that NCUA regional management and staff worked closely with credit
   union management and staff to revive the credit unions. We also determined that with credit
   unions where management was initially resistant, examiners had to work diligently to convince
   management of the findings and guidance regarding emerging issues. Furthermore, we
   determined that regional staff used uncommon approaches with some of the credit unions to
   address supervisory concerns.

   We believe the positive outcomes regions experienced with the credit unions were the result of
   examiners identifying the issues early and taking the necessary administrative actions. We also
   believe regional staff taking the time to build positive relationships and their diligent efforts to
   communicate with credit union management helped ensure management’s cooperation and
   played a major role in overcoming the supervisory concerns. Accordingly, we are not making
   any formal recommendations at this time.

   We appreciate the courtesies and cooperation NCUA management and staff provided to us during
   this review.




   1
       We sampled 10 credit unions exhibiting supervisory concerns.


   NCUA Office of Inspector General                                                     Page | 1
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   BACKGROUND

   NCUA is an independent federal agency that regulates, charters, and supervises federal credit
   unions. NCUA has five regional offices and the Office of National Examinations and
   Supervision where field staff regularly examine federally insured credit unions to help ensure
   safe and sound operations. Accordingly, regional management and staff routinely make critical
   decisions on credit unions exhibiting supervisory concerns. These decisions result in intervening
   actions intended to revive or reduce losses at the credit unions.

   For credit unions exhibiting supervisory concerns, NCUA has various methods to help resolve
   issues. One of the first actions examiners can take is to increase supervision and monitoring of
   credit unions through frequent onsite and offsite contacts. Also available to examiners are
   administrative remedies, which include informal and formal actions that focus special attention
   on the problems or weaknesses and requires corrective action by credit union officials and
   management. All informal actions, except for the Document of Resolution, require the Regional
   Director’s approval. Formal actions are authorized or mandated by statute, are generally more
   severe, and may be disclosed to the public. In addition, the NCUA Office of General Counsel
   must be consulted on all formal actions, and the actions must be approved as outlined in the
   Delegations of Authority.

   Informal Actions

   Document of Resolution (DOR) – Outlines the problem(s) identified and corrective action
   plan(s) that represent agreements reached with credit union officials to correct problems of the
   highest priority and concern arising from the examination or supervision contact. The DOR
   identifies persons responsible and timeframes for corrective action(s).

   Regional Director Letter (RDL) – Is a tool to use when a credit union has serious and/or
   persistent problem areas not being resolved through field supervision alone. Examiners will
   ensure they fully address the issues through the examination process first, but a letter from the
   Regional Director is an option to further emphasize the areas of concern.

   Non-Published Letter of Understanding and Agreement (LUA) - Lists the credit union’s specific
   material problems and the agreed upon corrective actions necessary to resolve the problems.
   Regional offices sometimes use non-published LUAs as informal administrative actions. The
   LUA demonstrates to the credit union officials that the problems are of a major concern to
   NCUA and formally requests that the officials agree to the listed actions in lieu of NCUA taking
   formal administrative action.

   Preliminary Warning Letter (PWL) - Is a warning of potential formal administrative action if
   corrective action is not taken. The Regional Director issues a PWL when a credit union’s
   problems are serious and/or persistent and a credit union’s board is unwilling to sign an LUA.




   NCUA Office of Inspector General                                                    Page | 2
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Formal Actions

   Published Letter of Understanding and Agreement – Is the same as a non-published LUA;
   however, a published LUA is a formal administrative action. (See Non-Published LUA
   description under Informal Actions)

   Cease and Desist Order (C&D) - Normally requires the credit union to stop violating a relevant
   law or regulation or unsafe or unsound activities which caused or are likely to cause more than a
   minimal financial loss to, or have a significant adverse effect on the insured credit union.

   Civil Money Penalties - May be assessed against either a credit union or an institution-affiliated
   party that violates a relevant law or regulation or any final or temporary order. Under certain
   circumstances, NCUA may also assess fines for violations of regulatory reporting requirements
   and breaches of fiduciary duty.

   Removal – Allows the removal of credit union directors, officers, or committee members for an
   action or omission which constitutes a breach of fiduciary duty and involves personal dishonesty
   or demonstrates unfitness to serve when the credit union’s board will not or cannot discharge the
   responsible person and that person does not voluntarily resign.

   Prohibition - Stops any institution-affiliated party such as a former credit union official, from
   participating in the affairs of a federally-insured financial institution.

   Conservatorship – Allows NCUA to take immediate possession and control of the credit union’s
   business, assets and operations until the credit union is: (1) able to resume business on its own;
   (2) transferred to a state authority’s possession and control in the case of a federally insured
   state-chartered credit union; (3) liquidated; (4) merged with another institution; or (5) declared
   insolvent.

   CAMEL Rating System

   Examiners use the CAMEL2 Rating System to assign a CAMEL rating to the credit union at the
   conclusion of an examination. The CAMEL Rating System provides a consistent assessment of
   a credit union's financial condition and operations. The CAMEL rating includes consideration of
   key ratios, supporting ratios, and trends. CAMEL ratings range from a 1 (the highest rating) to a
   5 (the lowest rating). Credit unions with a composite CAMEL code 3 rating exhibit some degree
   of supervisory concern in one or more of the component areas. CAMEL code 4 credit unions
   generally exhibit unsafe and unsound practices or conditions, and CAMEL code 5 credit unions
   exhibit extremely unsafe and unsound practices and conditions.

   2
     The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
   [M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management. The CAMEL ratings disclosed in this
   report refer to the overall composite CAMEL rating examiners assign a credit union and not the individual
   component ratings.


   NCUA Office of Inspector General                                                            Page | 3
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   OBJECTIVE, SCOPE AND METHODOLOGY

   To help NCUA in the supervision of credit unions moving forward, the objective of this audit
   was to identify lessons learned from NCUA cases where specific corrective actions helped
   revitalize credit unions exhibiting supervisory concerns. To accomplish our objective, we
   interviewed NCUA regional management and staff. We obtained and reviewed NCUA
   guidance, policies, procedures, and other available information addressing credit unions
   experiencing supervisory concerns. In addition, we reviewed ten credit unions 3 where corrective
   actions helped revive the credit unions. 4 Furthermore, we identified and documented the
   supervisory concerns at the ten credit unions. Appendix A contains our summary of the
   supervisory concerns at each credit union. Appendix B provides an overview of the status of
   each credit union.

   We used computer-processed data from NCUA’s Automated Integrated Regulatory Examination
   Software (AIRES). We did not test controls over this system. However, we relied on our
   analysis of information from management reports, correspondence files, and interviews to
   corroborate data obtained from these systems to support our audit conclusions.

   We conducted this performance audit from June 2013 through April 2014 in accordance with
   generally accepted government auditing standards and included such tests of internal controls as
   we considered necessary under the circumstances. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit objectives.
   Furthermore, we provided NCUA management officials a discussion draft of this report and
   included their comments where appropriate.

   PRIOR AUDIT COVERAGE

   NCUA OIG has not conducted any prior audits within the past five years related to this subject.




   3
     We judgmentally selected two credit unions from each of the five regions.
   4
     Revived credit unions were credit unions that examiners downgraded to a composite CAMEL 3, 4, or 5 due to
   supervisory concerns; however, subsequent intervening actions resulted in examiners upgrading these credit unions
   to a composite CAMEL 1 or 2.


   NCUA Office of Inspector General                                                               Page | 4
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   RESULTS IN DETAIL

   We determined that regional management and staff actions were instrumental in persuading
   credit union management to overcome supervisory concerns. We also determined that credit
   union management cooperation was essential in resolving many of the issues; however, in some
   instances examiners had to be persistent to convince credit union management that the problems
   existed. Finally, we determined that regional staff employed uncommon methods to successfully
   address some of the issues.

   Examples of Lessons Learned

                                    NCUA regional management consistently stressed that constant
     NCUA Staff and Credit
                                    communication and involvement by regional staff and the
     Union Management               cooperation of credit union management were key to correcting
     Worked Together to             the problems within the credit unions. Regional management
     Resolve Issues                 also stated that they allowed field staff necessary time to work
                                    with credit union management, which facilitated resolving the
   issues. The following are cases where we determined NCUA management and staff and credit
   union management and staff worked together to revive the credit union or reduce losses to the
   share insurance fund:

   Credit Union 1

   Examiners identified multiple problems during the September 30, 2008 examination of this
   credit union. Specifically, examiners determined that the credit union experienced an increase in
   delinquencies and charge-offs primarily related to real estate loans; high credit risk; weak
   earnings; declining net worth; and expected continued loan losses. Accordingly, examiners
   downgraded the credit union’s composite CAMEL to 3. Examiners also increased onsite
   contacts, performed monthly financial reviews and issued multiple DOR items to help address
   the problems. In addition, regional management indicated that DOR progress was closely
   tracked by credit union management and NCUA field staff. Regional management attributed the
   successful resolution to examiners identifying the problems early on and obtaining the chief
   executive officer’s (CEO) buy-in that the problem resolution actions were necessary and
   realistic. Furthermore, credit union management was receptive to NCUA's guidance and
   recommendations and established attainable earnings goals. Ultimately, credit union
   management cooperation and field staff actions resulted in improved financial performance,
   subsequently resulting in examiners upgrading the credit union to a composite CAMEL 2 during
   the September 30, 2011 examination.

   Credit Union 2

   During the March 31, 2008 examination of this credit union, examiners determined that
   inefficient operations; inadequate loan policy and procedures; and weaknesses in loan



   NCUA Office of Inspector General                                                 Page | 5
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   underwriting led to high credit risk. Accordingly, examiners issued a DOR that targeted the
   issues and downgraded the credit union’s composite CAMEL rating from 2 to 3 and the Earnings
   component to 5. Additionally, regional management transferred the credit union to its Division
   of Special Actions (DSA). DSA staff performed frequent onsite contacts and monthly offsite
   monitoring of board minutes and financial trends; provided weekly liquidity updates to the
   regional office; and reported the credit union’s status on the region’s monthly management
   report. However, a continued decline in the credit union’s asset quality; ongoing planning,
   budgeting and member business loan (MBL) policy weaknesses; and regulatory violations
   resulted in the examiners further downgrading the credit union’s composite CAMEL to 4 during
   the examination effective December 31, 2009. Consequently, regional staff continued the
   frequent onsite contacts and offsite monitoring as well as revising the DOR to include corrective
   actions for the additional issues uncovered during subsequent examinations.

   Regional management indicated that in response to examiner concerns, the credit union board
   replaced the CEO and other top management positions. The new credit union management team
   helped identify and develop programs to offset loan losses such as closing branches and reducing
   staff. In addition, the management team and regional staff worked on strategic plans together
   and developed positive working relationships. For instance, credit union management brought
   regional staff in early on during the decision process, valued NCUA input and listened to
   regional staff. Both parties engaged in regular and constant communication, such as weekly
   updates during the first six months. Ultimately, the management team changed the culture of the
   credit union by emphasizing membership growth over asset growth, and as conditions improved,
   examiners upgraded the credit union’s composite CAMEL rating to 3 during the September 30,
   2010 examination and then to a CAMEL 2 during the March 31, 2013 examination.

   Credit Union 3

   During the March 31, 2008 examination of this credit union, examiners determined that
   management did not establish reasonable concentration limits for higher risk real estate loans and
   experienced rising Home Equity Line of Credit (HELOC) losses due to sub-prime loans.
   Examiners also determined that management actions resulted in an unsafe and unsound level of
   risk exposure given the credit union’s net worth position and the operational environment.
   Accordingly, examiners downgraded the credit union’s composite CAMEL rating from 1 to 4
   and issued an LUA requiring that management establish loan concentration limits to help
   mitigate risks. In addition, examiners issued an RDL which emphasized the major areas of
   concern and urged credit union officials to take immediate and ongoing action to achieve the
   goals detailed in the examination report and LUA. Furthermore, examiners increased both their
   onsite and offsite monitoring of the credit union and issued DORs targeted toward the issues. As
   a result of examiners’ findings, management became very co-operative and receptive to
   examiners’ guidance and recommendations. While credit union management personnel did not
   change, management changed the way they operated the credit union. For instance, management
   became aggressive with loan collections and worked on reducing risk. Regional staff and credit
   union management’s diligent efforts resulted in examiners assigning the credit union a composite



   NCUA Office of Inspector General                                                  Page | 6
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   CAMEL 3 rating for the December 31, 2011 examination and a CAMEL 2 rating for the
   December 31, 2012 examination.

   Credit Union 4

   During the September 30, 2006 examination of this credit union, examiners initially noted liberal
   underwriting practices led to a large concentration of loans with increased credit risk and advised
   management to strengthen their underwriting policies and strategic plans. According to regional
   staff, credit union management had successfully dealt with the elevated levels of credit risk in the
   past, but the economic downturn in the local housing market combined with the onset of the
   national recession led to excessive loan defaults. Consequently, elevated loan delinquencies and
   losses resulted in examiners downgrading the credit union from a composite CAMEL 1 to a
   CAMEL 3 during the examination effective December 31, 2007, and subsequently to a CAMEL
   4 during the June 30, 2008 examination. Additionally, as conditions worsened, regional
   management assigned the credit union to its DSA group. DSA staff provided additional onsite
   and offsite supervision, assisted with identifying the underlying problems, and helped convince
   credit union officials to implement the corrective actions.

   Regional management indicated the key factors which helped the credit union recover included
   matching the right regional problem case officer with the credit union, in addition to pure hard
   work and commitment from the credit union board and management. For instance, the CEO
   hired a mid-level management team which included the former CEO who initially built up the
   credit union and an outside third party consultant to evaluate the credit union’s loan portfolio.
   Credit union management also put an emphasis on loan collections. In addition to increased
   onsite and offsite contacts, examiners issued multiple DORs, a PWL and an LUA which focused
   on the issues. As conditions improved, examiners upgraded the credit union’s composite
   CAMEL rating to a 3 for the examination effective December 31, 2011, to a CAMEL 2 during
   the September 30, 2012 examination, and finally back to a composite CAMEL 1 for the March
   31, 2013 examination.

   Credit Union 5

   Examiners discovered problems existed with the MBL portfolio at this credit union and
   expressed concerns over high-risk business loans and an alarming level of loan delinquency in
   the portfolio. As a result, examiners downgraded the credit union’s composite CAMEL 2 rating
   to a CAMEL 3 during the December 31, 2007 examination. In addition, examiners increased
   contacts and monitoring and issued multiple DORs and an RDL targeted toward the problems.
   Also, when several credit union employees stated that discretionary spending by management
   was too high, examiners investigated and determined that internal control weaknesses resulted in
   excessive spending. Consequently, the credit union board removed the CEO and quickly hired
   interim management. Regional management stated the credit union was transferred to its DSA
   during late 2009, and DSA worked closely with credit union management. For example, credit
   union management and NCUA staff jointly developed an expense reduction plan which included
   salary reductions, benefit reductions and employee reductions. In addition, the examination team


   NCUA Office of Inspector General                                                   Page | 7
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   took the time and energy to build a good working relationship and rapport with credit union
   management. Ultimately, the examiners upgraded the credit union to a composite CAMEL 2
   during the September 30, 2010 examination.

                                          We found instances where examiners had to work diligently
     Examiners Persistence                to overcome initial management resistance and convince
     Resulted in Positive                 management of the findings and guidance regarding
     Management Actions                   emerging issues. The following are cases where examiners
                                          worked successfully to convince management to address
                                          emerging issues:

   Credit Union 6

   During an annual examination of this credit union, a district examiner observed that the credit
   union’s largest concentration of loans were to the CEO and the CEO’s spouse. The CEO was
   well respected in the credit union community, on the board of the state credit union league and
   trusted by the credit union board. Consequently, when confronted with the examiner’s concerns
   over personal loans the CEO obtained from the credit union, the credit union board was initially
   resistant. However, regional staff was persistent and convinced the board’s treasurer that the
   loans were questionable and needed to be looked into further. Examiners eventually determined
   that the CEO had obtained the loans without the board’s approval and embezzled money from a
   member's account to finance a personal investment. The CEO subsequently pled guilty to bank
   fraud and received jail time. Accordingly, NCUA issued a Prohibition Order against the former
   CEO. As a result of the regional staff’s efforts, the board became more involved with the
   management of the credit union and improved the loan approval process.

   Credit Union 7

   A new examiner in charge (EIC) leading the March 31, 2011 examination of this credit union
   noticed some questionable lending trends. In an effort to get a more accurate picture of the credit
   union’s condition, the EIC instructed the examiners to expand the examination procedures.
   Examiners subsequently determined that a high level of interest rate risk existed within the credit
   union’s real estate loan investment portfolio and downgraded the credit union’s composite
   CAMEL rating from a 2 to a CAMEL 3.

   The CEO was not receptive to examiner concerns. According to regional management, field
   staff met with the CEO and other executives four or five times trying to convince them that the
   problems existed and needed immediate attention. Regional staff was finally able to persuade
   the chief financial officer that a high level of interest rate risk existed. In turn, the chief financial
   officer convinced the other executives that the credit union’s interest rate risk was high. After
   acknowledging the problems, the credit union management team became very cooperative and
   supportive. Because the EIC was proactive, examiners identified the issues in a timely manner
   and took prompt supervisory and administrative actions, which included increased contacts and
   monitoring, DOR items, and an RDL highlighting the concerns. The efforts of regional staff and


   NCUA Office of Inspector General                                                        Page | 8
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   the cooperation of credit union management resulted in examiners upgrading the credit union’s
   composite CAMEL to a 2 during the examination effective December 31, 2012.

                                      We found that although most of the actions taken with credit
    Regional Staff Used
                                      unions followed standard NCUA practices, there are some
    Uncommon Approaches
                                      cases that illustrate uncommon approaches regional staff used
    to Address Credit Union
                                      to address credit union issues. Specifically:
    Issues

   Credit Union 8

   According to regional management, this state-chartered credit union had numerous problems in
   all areas which stemmed from incompetent management. For instance, during the September 30,
   2007 joint examination with the State Supervisory Authority (SSA), NCUA examiners
   determined that credit union management’s questionable long-term investment strategy led to
   increased credit and interest rate risks. Examiners also determined that the credit union was
   experiencing high delinquencies and net charge offs and downgraded the credit union’s
   composite CAMEL rating from a 2 to a CAMEL 3. During the December 31, 2008 joint
   examination, examiners identified multiple issues with the credit union, including a need for
   significant write-downs of the private label investment portfolio and corresponding loan losses
   funding which led to a decline in the credit union’s net worth; safety and soundness issues
   involving the private label investment portfolio; unsafe and unsound practices in the MBL
   program; a lack of control over the indirect lending program; and internal audit program
   weaknesses. To address these concerns, the examiners further downgraded the credit union to a
   composite CAMEL 4 and issued multiple DOR action items that targeted the problems. More
   importantly, on May 1, 2009, NCUA and the SSA issued a joint C&D, which required credit
   union management to stop the numerous unsafe and unsound practices and to develop a
   management plan. Finally, on December 6, 2011, NCUA issued an LUA detailing specific
   corrective actions, in addition to examiners increasing their supervision of the credit union
   through frequent onsite and offsite contacts.

   Regional management stated that the level of supervision provided by regional staff was not
   standard given the credit union’s larger size and complexity. Normally, senior management of
   larger credit unions provides NCUA with a plan to address the issues. However, because many
   of the problems were the result of incompetent management, regional staff provided hands-on
   guidance. For example, the EIC met offsite with the credit union’s board, associate board and
   audit committee members for approximately four hours to discuss the lending, investment and
   management issues. Moreover, the EIC continued to meet with the board members on a monthly
   basis to discuss the credit union’s progress, and the supervisory examiner allowed the EIC the
   time needed to work with credit union management. This resulted in the examiner establishing
   trust with the credit union board. Over time, the board replaced most of the senior and executive
   staff and hired a consultant to assess staffing needs and the current management team.
   Improvements by credit union management resulted in examiners eventually upgrading the credit



   NCUA Office of Inspector General                                                 Page | 9
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   union’s composite CAMEL rating to a 2 and recommending the termination of the LUA during
   the December 31, 2012 examination.

   Credit Union 9

   Examiners determined that significant systemic risk existed in this credit union’s large portfolio
   of MBL participations and its consumer real estate loan portfolio. The examiners also
   determined that the MBLs were poorly documented and had significant monitoring weaknesses.
   Examiners further determined that product profitability analysis and collection monitoring were
   inadequate and downgraded the credit union’s composite CAMEL rating from a 1 to a 4. In
   addition, regional staff issued a DOR and an LUA, which required credit union management to
   hire experienced and qualified member business lending personnel familiar with managing
   complex commercial portfolios. Regional staff also required credit union management to
   contract with a qualified external member business lending consulting group to assess and
   address the MBL portfolio management deficiencies. As conditions improved, examiners
   upgraded the credit union’s composite CAMEL rating to a 3, then to a 2. According to regional
   management, requiring the use of external specialists through a DOR and an LUA was not a
   commonly used option before the financial crisis. However, regional management believes that
   the use of third party expertise should be required more often.

   Credit Union 10

   During the March 31, 2009 examination of this credit union, examiners noted concerns with the
   credit union’s large concentrations of real estate loans and MBL weaknesses and downgraded the
   composite CAMEL rating from a 1 to a 3. More importantly, an initiative by the regional
   Division of Supervision to further review trends identified at various regional credit unions 5
   prompted a special onsite contact to this credit union four months later. As a result, examiners
   determined that credit risk management was inadequate and further downgraded the credit union
   to a composite CAMEL 4. Because the initiative prompted a special onsite visit in advance of
   the next annual examination, examiners detected the credit risk issues earlier and were able to
   address them in a timely manner.

   Over the course of several examinations, examiners also determined that credit union
   management did not adequately identify or assess the risks in their loan products and rapidly
   expanded both residential and commercial real estate loan portfolios in the years leading up to
   the recession. To help rectify the issues, examiners increased the supervision and monitoring of
   the credit union, 6 and issued DORs and an LUA. Consequently, over a four year period,
   conditions at the credit union steadily improved, resulting in examiners upgrading the credit


   5
     The initiative applied specific criteria to generate a target sample of credit unions exhibiting high risk on their
   balance sheets and required examiners outside of the current supervisory examiner group to perform risk-focused
   reviews of these credit unions.
   6
     Examiners increased supervision and monitoring through frequent onsite contacts and offsite monitoring such as
   weekly follow-up telephone calls.


   NCUA Office of Inspector General                                                                   Page | 10
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   union to a composite CAMEL 3 for the examination effective June 30, 2012, and then to a
   CAMEL 2 during the June 30, 2013 examination.

     Summary of Lessons                Using the lessons learned from these successful resolutions
                                       could help examiners and management in reducing future
     Learned from NCUA
                                       failures and losses to the National Credit Union Share
     Regional Staff Actions
                                       Insurance Fund. The following summarize lessons learned
                                       from actions taken by regional staff to help revitalize credit
                                       unions exhibiting supervisory concerns:

      •   Regional staff initiated various informal and formal actions as needed to address the
          supervisory concerns. Specifically (see the summary in Table 1 below):

          o In every case, examiners increased their supervision of the credit unions with more
            frequent onsite visits and offsite monitoring such as follow-up telephone calls and
            financial report reviews.

          o Examiners issued DORs at all of the credit unions in an effort to help correct the
            problems.

          o In seven of the ten cases increased supervision and DORs did not suffice,
            necessitating more stringent actions by NCUA regional staff. Consequently, regional
            staff used additional tools available and issued RDLs at three credit unions, LUAs at
            five credit unions, a PWL at one credit union, and a C&D at the remaining credit
            union.




   NCUA Office of Inspector General                                                  Page | 11
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Table 1

                                   Informal and Formal Actions Taken




                                                                            Warning Letter
                                                            Understanding
                                                            & Agreement
                      Contacts &




                                                                             Preliminary



                                                                                               Desist Order
                                    Resolution

                                    Document
                      Monitoring

                      Increased




                                                 Regional




                                                                                                Cease &
                                                              Letter of
                                                 Director
                                                  Letter
          Credit



                                       of
          Union


             1            X             X
             2            X             X
             3            X             X           X            X
             4            X             X                        X                X
             5            X             X           X
             6            X             X
             7            X             X           X
             8            X             X                        X                                  X
             9            X             X                        X
             10           X             X                        X
             Totals      10            10           3             5               1                 1


   We believe that regional staff actions were instrumental in helping credit union management to
   overcome supervisory concerns. We also believe the positive outcomes the regions experienced
   with the credit unions were the result of examiners identifying the issues early and taking the
   necessary administrative actions. Finally, we believe regional staff taking the time to build
   positive relationships and the staff’s diligent efforts to communicate with credit union
   management helped ensure management’s cooperation and played a major role in overcoming
   the supervisory concerns. Accordingly, we are not making any formal recommendations at this
   time.




   NCUA Office of Inspector General                                                          Page | 12
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Appendix A: Summary of Supervisory Concerns

   Examiners identified various supervisory concerns among the credit unions reviewed. Although
   some of these credit unions had multiple issues, examiners identified lending problems at all of
   the ten credit unions. Specifically, we determined that (see the summary in Table 2 below):

       •    Five of the credit unions had member business loan (MBL) issues. Some of the examiner
            MBL findings included significant systemic risk within a large portfolio of MBL
            participations; 7 MBL policy weaknesses; poorly documented MBLs; and unsafe and
            unsound MBL practices.

       •    Six of the credit unions had real estate loan problems such as rising home equity line of
            credit losses; increased real estate loan delinquencies and charge-offs; high credit risk due
            to inadequate loan policy and procedures; and inadequate real estate loan underwriting.

       •    Examiners determined that liberal underwriting practices at one of the credit unions led to
            a large concentration of high risk vehicle loans.

       •    Seven of the credit unions experienced significant net worth issues.

       •    The chief executive officer at one of the credit unions fraudulently obtained personal
            loans.

       •    One credit union had a long history of numerous problems in all areas of operations
            stemming from incompetent management.




   7
    A participation loan is a loan where one or more eligible organizations participate pursuant to a written agreement
   with the originating lender. Eligible organizations include credit unions, credit union organizations, and financial
   organizations.


   NCUA Office of Inspector General                                                                 Page | 13
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Table 2

                                    Summary of Supervisory Concerns
                                       Lending                            Other




                                                                                        Management
                      Business




                                             Personal
          Credit
                      Member




                                                        Vehicle
                                 Estate
                       Loans




                                 Loans




                                              Loans




                                                        Loans




                                                                  Worth




                                                                           Fraud
                                  Real




                                                                   Net
          Union



             1                     X                                X
             2           X         X                                X
             3                     X
             4                                             X        X
             5           X                                          X
             6                                   X                          X
             7                     X                                X
             8           X                                          X                     X
             9           X         X
             10          X         X                                X
              Total      5         6             1         1        7       1              1




   NCUA Office of Inspector General                                                Page | 14
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Appendix B: Overview of Credit Union Status

   We found that the length of time to resolve the supervisory concerns and to improve or return the
   credit union to its pre-issue status ranged from one to six years, with most cases taking three or
   more years for resolution. Table 3 (below) provides an overview of the status of each credit
   union and the length of time it took to resolve the issues.

   Table 3

                                      Overview of Credit Union Status

                                                                                              Time to
            Federal (F) Composite                                    Date
                                             Exam/Date Lowest                                Resolve
     Credit     or       CAMEL                                    Returned to Composite
                                    Assets     Issues   Composite                          Supervisory
     Union State (S)     Prior to                                   Normal     CAMEL
                                             Discovered CAMEL                               Concerns
            Chartered Issues                                      Supervision October 2013
                                                                                            (in Years)

       1        S          2        753M     9/30/2008       3          9/30/2011   1           3.0
       2        F          2        2.2B     3/31/2008       4          3/31/2013   2           5.0
       3        F          1        673M     3/31/2008       4      12/31/2012      2           4.8
       4        F          1        1.6B     9/30/2006       4          9/30/2012   1           6.0
       5        F          2        575M     12/31/2007      3       9/30/2010      2           2.8
       6        F          2        37M      12/31/2010      3      12/31/2011      2           1.0
      7         F          2        1.3B     3/31/2011       3      12/31/2012      2           1.8
      8         S          2        542M     9/30/2007       4      12/31/2012      2           5.3
      9         S          1        1.5B     3/31/2009       4       6/30/2013      2           4.3
      10        F          1        512M     3/31/2009       4          6/30/2013   2           4.3




   NCUA Office of Inspector General                                                 Page | 15
OIG-14-07 Lessons Learned – Successful Outcomes With Credit Unions
 Exhibiting Supervisory Concerns




   Appendix C: NCUA Management Response




   NCUA Office of Inspector General                                  Page | 16
